OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/NIGERIA’S
PROGRESS IN IMPLEMENTING
THE PRESIDENT’S
EMERGENCY PLAN FOR AIDS
RELIEF

AUDIT REPORT NO. 7-620-06-004-P
AUGUST 31, 2006




DAKAR, SENEGAL
Office of Inspector General


August 31, 2006

MEMORANDUM

TO:                  Mission Director, USAID/Nigeria, Patrick Fleuret

FROM:                RIG/Dakar, Nancy T. Toolan /s/

SUBJECT:             Audit of USAID/Nigeria’s Progress in Implementing the President’s Emergency
                     Plan for AIDS Relief (Report No. 7-620-06-004-P)

This memorandum is our final report on the subject audit. In finalizing this report, we
considered management’s comments on our draft report and included them in Appendix II.

This report contains one recommendation with which you concurred in your response to the
draft report. Based on appropriate action taken by the Mission, a management decision has
been reached, and the recommendation is considered closed upon issuance of this report. No
further action is required of the Mission.

I appreciate the cooperation and courtesies extended to the members of our audit team during
this audit.




U.S. Agency for International Development
Ngor Diarama, Petit Ngor, BP 49
Dakar, Senegal
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective................................................................................................................ 3

Audit Findings ................................................................................................................. 4

     Discrepancies Found in Data
     Used to Manage Activities........................................................................................... 5

Evaluation of Management Comments ......................................................................... 7

Appendix I – Scope and Methodology .......................................................................... 9

Appendix II – Management Comments ....................................................................... 11

Appendix III – Progress Reported Towards Outputs................................................. 18
SUMMARY OF RESULTS
This audit, performed by the Regional Inspector General in Dakar, Senegal, is part of a
series of audits conducted by the Office of Inspector General. The objective of this audit
was to determine whether USAID/Nigeria’s Emergency Plan prevention and care activities
were progressing as expected towards the planned outputs in its grants, cooperative
agreements and contracts. (See page 3.)

We concluded that USAID/Nigeria’s prevention and care activities were not progressing as
expected towards the planned outputs in its grants, cooperative agreements and contracts.
For 8 of the 15 key outputs reviewed, five partners did not achieve 90 percent or more of
their fiscal year (FY) 2005 planned outputs by September 30, 2005. However, since
September 30, partners have reported significant progress towards achieving their planned
outputs. Additionally, USAID/Nigeria has taken steps to improve the management of
Emergency Plan activities. (See page 4.)

Discrepancies were found in the data used by the Mission to assess and track the
performance of its partners. The performance of one partner was overstated due to
incorrect data used during a quarterly portfolio review. Furthermore, this same error and
another error related to a different partner were carried into the data entered into the
Mission’s internal tracking system used to monitor partners’ performance. (See pages 5
to 6.)

This report includes a recommendation that USAID/Nigeria develop specific procedures
to cross-check and verify data used to monitor, report and/or assess the progress of
Emergency Plan partners, including but not limited to Portfolio Reviews and the
Mission’s internal mechanism used to track partner progress, and that this verification
should be documented in the activity files. (See page 6.)

USAID/Nigeria agreed with the recommendation and based on actions taken, a
management decision has been reached and the recommendation is considered closed.
The Mission also provided comments on other findings which are addressed in this
report and included in their entirety in Appendix II.




                                                                                        1
BACKGROUND
Through the President’s Emergency Plan for AIDS Relief (Emergency Plan). Congress
enacted legislation to fight HIV/AIDS internationally. The $15 billion, 5-year program
provides $9 billion in new funding to speed up prevention, care, and treatment services
in 15 focus countries.1 The Emergency Plan also devotes $5 billion over 5 years to
bilateral programs in more than 100 countries and increases the U.S. pledge to the
Global Fund2 by $1 billion over 5 years. The fiscal year (FY) 2005 budget for the
Emergency Plan focus countries totaled $1.03 billion.

The Emergency Plan is directed by the Department of State’s Global AIDS Coordinator
(AIDS Coordinator) and implemented collaboratively by country teams composed of staff
from USAID, the Department of State, the Department of Health and Human Services,
and other Federal agencies. The worldwide goal over 5 years is to provide treatment to 2
million HIV-infected people, prevent 7 million HIV infections, and provide care to 10
million people infected and affected by HIV/AIDS, including patients and orphans. The
AIDS Coordinator divided these Emergency Plan targets among the 15 focus countries
and allowed each country to determine its own methodology for achieving their portion of
the assigned targets by the end of the 5-year period.

USAID’s Bureau for Global Health’s Office of HIV/AIDS (OHA) provides technical
leadership for USAID’s HIV/AIDS programs. OHA, along with the Office of the Global
AIDS Coordinator (OGAC), works with the interagency country team in each focus
country to develop and approve an annual Country Operational Plan (COP), which sets
out the activities and expected outputs to be achieved with that fiscal year’s funding.

The U.S. Government Mission in Nigeria was allocated $79.1 million for FY 2005
activities, of which $43.9 million3 was managed by USAID. Of this, USAID/Nigeria had
grants, cooperative agreements or contracts totaling $27.7 million for FY 2005 activities
established with eight partners to implement care and prevention programs.
USAID/Nigeria was also working with another three partners in prevention and care
programs, centrally-funded from Washington, which totaled $3.6 million for FY 2005.
Over 85 percent of this combined funding was allocated to the following five partners:

    •   Family Health International/Global HIV/AIDS Initiative in Nigeria
    •   Society for Family Health
    •   Safe Blood for Africa Foundation
    •   Hope Worldwide
    •   John Snow Incorporated

1
  Twelve focus countries are in Africa (Botswana, Cote d’Ivoire, Ethiopia, Kenya, Mozambique,
Namibia, Nigeria, Rwanda, South Africa, Tanzania, Uganda, and Zambia), and the three others
are Guyana, Haiti and Vietnam.
2
 The Global Fund is a public-private partnership that raises money to fight AIDS, tuberculosis
and malaria.
3
 This amount includes prevention, care, and treatment activities. The scope of this audit is only
prevention and care.


                                                                                               2
AUDIT OBJECTIVE
This audit was conducted as part of a series of worldwide audits of USAID’s progress in
implementing the President’s Emergency Plan for AIDS Relief included in the Office of
Inspector General’s fiscal year 2006 annual audit plan. The audit was conducted to
answer the following audit objective:

   •   Are USAID/Nigeria’s Emergency Plan prevention and care activities progressing
       as expected towards the planned outputs in its grants, cooperative agreements
       and contracts?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                     3
AUDIT FINDINGS
USAID/Nigeria’s Emergency Plan prevention and care activities had not progressed as
expected towards the planned outputs in its grants, cooperative agreements, and
contracts due to the late receipt of FY 2005 funding. For the five partners reviewed,
representing 86 percent of the Mission’s prevention and care funding for FY 2005, 8 of
15 key outputs (53 percent) selected for review were not being met as of September 30,
2005.

However, partners have reported significant progress toward achieving planned outputs
since September 30, 2005. For 11 of the 15 key outputs (73 percent) reviewed, partners
reported achieving 90 percent or more of their planned outputs within six to twelve
months of receiving FY 2005 funding. Further details on all five partners and the 15
selected outputs are contained in Appendix III.

The lack of progress as of September 30, 2005 represents the partners’ achievements
during a relatively short period of time after they received their FY 2005 funding, and
does not represent the full year of program activities. According to Mission staff, the
required report of accomplishments on March 30 and September 30 are “snapshots”
capturing progress at regular intervals and are not necessarily expected to coincide with
planned outputs set in the same COP year because the funding was not provided in the
same timeframe. The Mission considers that a more accurate reflection of progress can
be gained by measuring achievements occurring in the one-year period following the
receipt of funds against the outputs specified in the grants, cooperative agreements and
contracts, rather than against a fixed reporting date that typically represents less than
one year of activity.

USAID/Nigeria has taken positive steps to strengthen the management of Emergency
Plan activities and program. First, the number of staff on the strategic objective team
responsible for oversight of Emergency Plan activities tripled, increasing from 5 to 15.
Second, commensurate with the increase in staff, the number of Cognizant Technical
Officers also tripled, from three to nine, allowing for better monitoring of partners and
their activities. The Mission also implemented a comprehensive portfolio review process
on a quarterly basis to assess partners’ progress. Finally, to help track and monitor
partners’ progress outside of the centralized and composite OGAC reporting system, the
Mission created an internal spreadsheet (called the Annual Report Tables) that contains
achievement towards Emergency Plan outputs that are updated semi-annually.

However, despite the progress being reported by the partners and the improvements in
Emergency Plan management at the Mission, the audit found discrepancies in the data
used by the Mission to manage Emergency Plan activities.




                                                                                       4
Discrepancies Found in Data
Used to Manage Activities

    Summary: Discrepancies were found in data used by USAID/Nigeria during its
    portfolio review of partners and in data input by the Mission into its internal
    spreadsheet used to track partners’ progress in achieving outputs. These
    discrepancies occurred because data was not adequately reviewed or cross-
    checked and verified to source documents. USAID guidance emphasizes the
    importance of data quality in the role of management decisions. Insufficiently
    checking the accuracy of data used to monitor and assess program activities could
    result in making management decisions that are inappropriate.

We found discrepancies in the data used by the Mission to assess and track the
partners’ performance in implementing Emergency Plan activities. The summary sheet
prepared by Mission staff for the quarterly portfolio review for one partner contained data
that was incorrect and overstated the partner’s performance. This same error and
incorrect data for another partner were carried into the performance data entered into
the Mission’s internal tracking system.

During a portfolio review of Safe Blood for Africa Foundation (SBFAF), the Mission used
the output achievement of 3,682 individuals trained in blood safety procedures as of
September 2005, the same figure reported in SBFAF’s progress report. However, this
figure should not have been used to assess SBFAF’s progress in the USAID program as
it reflected the results achieved from activities funded by both USAID and Centers for
Disease Control and Prevention (CDC), another of SBFAF’s Emergency Plan donors. At
another point in time, the partner submitted data indicating the number trained as 3,075
and this figure was entered by USAID/Nigeria into its internal tracking spreadsheet
called the Annual Report Tables. Regardless of which figure is used, the error still
remains since the achievement was compared against a planned output of training 40
individuals. We believe this error should have been noticed when preparing for and
conducting the portfolio review and when entering the data into the spreadsheet as using
either of those figures resulted in a very questionable achievement rate of between
7,000 to 9,000 percent. While visiting SBFAF’s office, partner staff provided a breakout
of training data between donors that showed the training of seven individuals could be
attributed to USAID specific outputs, an achievement level of 18 percent.

In another case, the Annual Report Tables showed that Family Health
International/Global HIV/AIDS Initiative in Nigeria (FHI/GHAIN) had provided 9,695 HIV-
infected clients with treatment for tuberculosis. However, the data collection template
submitted by the partner (the source document for the tables) showed that only 345
individuals had received treatment. 4

USAID guidance emphasizes the importance of data quality when that data is used to
make management decisions. Automated Directives System (ADS) 203.3.5 states that
Operating Units should ensure that the data used are of sufficiently high quality to
support the appropriate level of management decisions. Additionally, USAID’s Center of

4
  This output was not selected as one of the outputs used to assess progress. However, when
reviewing data for the selected outputs, we noted this error.


                                                                                              5
Development Information and Evaluation Performance Monitoring and Evaluation Tips
(TIPS) Number 12 explains how USAID uses performance data in managing for results
and that this results-oriented management approach relies on managers to inform their
decisions with performance information. Sound decisions require accurate, current, and
reliable information, and the benefits of this results-oriented approach depends
substantially on the quality of the performance information available. TIPS Number 12
also states that transcription errors and other discrepancies can be easily avoided by
carefully cross-checking the data to the source document. To further ensure data
accuracy, it would be prudent to recalculate mathematical calculations used in reporting
program results.

The use of inaccurate data during the portfolio review and the errors made in
USAID/Nigeria’s Annual Report Tables resulted from a lack of cross-checking and
verification to source documentation. In all three of the cases cited, if cross-checking
and verification of the data back to the relevant source documents had occurred, the
errors would have been caught. The Mission indicated that the preparation for the
portfolio reviews is a collaborative effort between the Program Office, Strategic Objective
Teams and Cognizant Technical Officers (CTOs) to collect the performance data used
during the review, and acknowledged that a more rigorous verification of the data could
have been done before the formal review. Regarding the Annual Report Tables, the
Mission said that the CTOs perform accuracy and completeness reviews of the
documents submitted by the partners from which the data is extracted. However, these
errors indicate that there is no further review or verification of the data once it is entered
into the spreadsheet.

Because both the portfolio reviews and the Annual Report Tables are used to monitor
and assess the performance of partners and as tools to make management decisions
regarding program activities, it is essential to use quality data in order to make accurate
assessments. Otherwise inappropriate management decisions could be made because
they are based on inaccurate data. Therefore, we make the following recommendation:

   Recommendation No. 1: We recommend that USAID/Nigeria develop specific
   procedures to cross-check and verify data used to monitor, report and/or assess
   the progress of Emergency Plan partners, including but not limited to Portfolio
   Reviews and the Mission’s internal Annual Report Tables, and that this
   verification should be documented in the activity files.




                                                                                            6
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Nigeria provided detailed comments in response to our draft report. The Mission
agreed with our recommendation and indicated that appropriate action had been taken.
Therefore, a management decision has been reached for the recommendation.

Recommendation No. 1 states that USAID/Nigeria should develop specific procedures to
cross-check and verify data used to monitor, report and/or assess the progress of
Emergency Plan partners, including but not limited to Portfolio Reviews and the
Mission’s internal Annual Report Tables, and that this verification should be documented
in the activity files. To address this recommendation, on August 11, 2006 USAID/Nigeria
issued Mission Order 200-13 that specifically requires program office staff to footnote all
data sources used in portfolio review narratives and review sheets and to ensure data is
cross-checked by a verifier and that calculations are checked for accuracy. The order
also requires that the staff and team leaders sign a form documenting that the accuracy
of the data has been verified and the results of these processes will be documented in
the activity files. The Mission also noted that a current Mission Order would continue to
serve as the protocol for the preparation of the Annual Report and that this order
requires similar verification and documentation of the data. As a result of the Mission’s
corrective action, the recommendation is considered closed upon issuance of this report.

USAID/Nigeria also submitted comments related to other findings in the draft report.
The comments for which they expressed partial or complete disagreement are
addressed below.

USAID/Nigeria disagreed with our conclusion that the activities were not progressing as
expected by September 30, 2005. The Mission provided a copy of an email from the
Office of the Global AIDS Coordinator showing that fiscal year (FY) 2005 results could
be achieved in the 12-month period following the receipt of FY 2005 funds by
headquarters agencies, defined as from April 1, 2005 through March 31, 2006.
According to the Mission, if this timeframe was used for our report, more partners would
be progressing as expected towards planned outputs. The Mission included a table
showing the revised levels of achievement for the ‘non-achieving partners’.

Regarding this comment, this audit was conducted as part of a series of worldwide
audits of USAID’s progress in implementing the President’s Emergency Plan for AIDS
Relief with the results of each individual audit summarized in an overall report.
Therefore to ensure consistency with the other audits performed, we provided
information on the achievements as of September 30, 2005. However, we also
recognize the importance of this concern to the Mission. For that reason, we included
language in the report emphasizing that the results as of September 30, 2005 reflect
less than one year of funding. Additionally, we included data on progress reported after
September 30, 2005. Regarding the table submitted by USAID/Nigeria, we are pleased
to see that the Mission is reporting that progress has continued with these activities in
the time period following our audit.




                                                                                         7
The Mission disagreed with the results we reported for the number trained in injection
safety by John Snow Incorporated (JSI). As part of their response, the Mission provided
documentation that was inadvertently omitted during the audit to support a corrected
figure of 2,245 individuals trained. They also clarified that data provided to us during the
audit included other training sessions and as such, the results we presented in Appendix
III were overstated as of December 2005. Based on this new documentation and
clarification, we revised the information presented in the appendix.

The Mission also noted that the number of individuals provided palliative care as of
September 30, 2005 was not correct. We reviewed our documentation and agreed that
an incorrect number had been extracted. We corrected the data in Appendix III however
the percentage of the planned output achieved still remained under the 90 percent
threshold.

Finally, the Mission disagreed in part with our statement that the Safe Blood for Africa
Foundation (SBFAF) had not yet established the second service outlet in Lagos within
the required one-year implementation time period. According to USAID/Nigeria, from
December 2005 to March 2006, SBFAF opened two additional service outlets (including
a service outlet in Lagos). However, in April 2006, the SBFAF Medical Director told us
that only the service outlet in Abuja was open, with some delays affecting the opening of
the center in Lagos. He also noted that two other centers were operational but these
were not funded or attributable to USAID. Therefore, we did not revise our report.

USAID/Nigeria’s comments are included in their entirety in Appendix II, except for the
supporting attachments, which are not included in this audit report.




                                                                                          8
                                                                               APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Dakar conducted this audit in accordance with generally
accepted government auditing standards. Fieldwork for this audit was performed at
USAID/Nigeria in Abuja between April 10 and April 27, 2006.               Meetings with
implementing partners and site visits were also conducted in three cities: Abuja, Lagos,
and Calabar.

This audit was one in a series of worldwide audits being led out of the Performance Audit
Division in Washington. The purpose of the audit was to determine if USAID/Nigeria’s
Emergency Plan prevention and care activities were progressing as expected towards
the planned outputs in its grants, cooperative agreements and contracts.

The audit covered fiscal year (FY) 2005 Country Operational Plan (COP) prevention and
care activities implemented under the Emergency Plan. USAID/Nigeria had a total of 11
partners scheduled to work in prevention and care. In the FY 2005 COP budget, eight of
those partners were allocated $27.7 million in funding directly from USAID/Nigeria for FY
2005 activities. The remaining three partners were centrally-funded from Washington
and allocated $3.6 million in funding for FY 2005 activities. We judgmentally selected 5
of the 11 partners—representing 86 percent ($26.9 million) of the combined funding of
$31.3 million, for FY 2005 prevention and care activities—for an in-depth review.

In performing the audit, we assessed the effectiveness of internal control related to the
reporting of performance results for Emergency Plan activities. We identified pertinent
internal control such as USAID/Nigeria’s process for monitoring its partners’ progress;
USAID/Nigeria’s process for monitoring its partners’ compilation of regional data to its
country-level reports; and USAID/Nigeria’s process for maintaining Emergency Plan data
supporting the Annual Report sent to the Office of the Global AIDS Coordinator (OGAC).


Methodology
To answer the audit objective, we reviewed prior Emergency Plan audit reports and
program strategy documents to obtain an understanding of the program. In addition, we
performed an in-depth review of the FY 2005 Country Operational Plan for Nigeria. Of
the 11 partners engaged in prevention and care activities for FY 2005, we selected 5 for
review. We then judgmentally selected at least one output in each program area under
prevention and care5 for which each selected partner was responsible and compared the
output achievement rates against the audit threshold criteria to determine if planned
outputs were achieved. The audit threshold criteria were as follows:


5
 Program areas under prevention are Prevention of Mother-to-Child Transmission (PMTCT),
Abstinence and Be Faithful, Medical Transmission/Injection Safety, Medical Transmission/Blood
Safety, and Other Prevention. Program areas under care are Palliative Care: Basic Care and
Support, Palliative Care: TB/HIV, Orphans and Vulnerable Children (OVC), and Counseling and
Testing.


                                                                                           9
                                                                                  APPENDIX I


    •   If at least 90 percent of the selected key outputs have been achieved6, the audit
        objective would be answered positively.

    •   If at least 80 percent but less than 90 percent of the selected key outputs have
        been achieved, the audit objective would be answered positively but with a
        qualification.

    •   If less than 80 percent of the selected key outputs have been achieved, the audit
        objective would be answered negatively.

In assessing whether partners’ activities were progressing as expected towards their
planned outputs, we reviewed the status of each project and related outputs as of two
dates:

    •   September 30, 2005, the end of the Emergency Plan fiscal year for 2005 which
        represented between 2 and 6 months of implementation.

    •   Most recent progress data available at the time of our audit which represented 6
        to 12 months of implementation with FY 2005 funding.

We relied on a review of pertinent documentation such as funding instruments, partners’
workplans and progress reports, and USAID/Nigeria’s FY 2005 Annual Report Tables
which provided outputs achieved as of September 30, 2005 that were reported to
OGAC. We did not perform any data verification on those results. In addition, we
obtained further information through interviews with Mission and partner staff on the
progress and status of planned outputs and conducted site visits to observe activities
first-hand.

We performed limited verification on the post-September data reported for 7 of the 15
selected outputs. For two of the five partners, this data was extracted from progress
reports submitted to USAID/Nigeria and we obtained data for the other three partners
during visits to their offices. Although the data we reviewed and validated could be
linked to an output, the verification was not performed on the reported output in total.
Instead, the verification was performed on a subset of the output such as several
months of data or selected names on a register at one or two sites of a particular partner
or sub-partner. The details of the verification performed on the seven outputs are
provided in Appendix III.




6
 The audit team considered an output to be achieved if the partner completed at least 90 percent
of the expected (planned) output.


                                                                                             10
                                                                            APPENDIX II



MANAGEMENT COMMENTS

                      DATE:          August 14, 2006


FOR:           Nancy T. Toolan, RIG/Dakar

FROM:          Natalie Freeman, USAID/Nigeria Deputy Mission Director /s/

SUBJECT: Mission Comments on Draft Report on Audit of USAID/Nigeria’s
Prevention and Care Activities under PEPFAR

Thank you for the opportunity to provide comments on the Regional Inspector General’s
(RIG) audit of USAID/Nigeria’s prevention and care activities as part of the President’s
Emergency Plan for AIDS Relief (PEPFAR). The audit provided the Mission with an
opportunity to strengthen our quarterly portfolio review process and served as the
impetus for development and implementation of a data quality checklist. Below please
find the draft RIG audit findings and recommendation along with corresponding
USAID/Nigeria comments.

Draft RIG Audit Finding, p.1:
We concluded that USAID/Nigeria’s prevention and care activities were not progressing as
expected towards the planned outputs in its grants cooperative agreements and contracts,.
For 6 of the 15 key outputs reviewed, five partners did not achieve 90 percent or more of
their fiscal year (FY) 2005 planned outputs by September 30, 2005. However, since
September 30, partners have reported significant progress towards achieving their planned
outputs. Additionally, USAID/Nigeria has taken steps to improve the management of
Emergency Plan activities.

USAID/Nigeria Response:
Disagree. USAID/Nigeria appreciates the consideration the Office of the Inspector
General has given to previous requests to reconsider the date against which progress
towards targets would be measured. To support our position that partners have 12
months from the date they receive funds to achieve their targets, we offer the following
text contained in an email (see Annex 1) from the Strategic Information (SI) Unit of the
Office of the Global AIDS Coordinator (OGAC):

       Guidance for the partner targets states on page 18 of the FY05 Country
       Operational Plan Guidance:

       Target’s Timeframe: The targets in this section [3.3] relate to a DIFFERENT
       time period than the targets in Table 2. The FY05 targets for the program areas


                                                                                       11
                                                                             APPENDIX II


       in Tables 3.3 should reflect results to be achieved (and FY05 funds to be
       expended) in the 12-month period following receipt of FY05 funds by
       headquarters agencies. Although we do not know, nor can we predict, the exact
       date by which FY05 funds will be received by headquarters agencies, we are
       defining this 12 month period to be April 1, 2005 –March 31, 2006.

Pursuant to this guidance, we would like to submit the following table to demonstrate the
performance of USAID/Nigeria’s partners with the most recent data available measured
against a 12-month timeframe from date of receipt of funds. If this timeframe were
allowed, only one partner (as opposed to five) would not be progressing as expected
towards its planned output on one indicator.

   Update on Non-Achieving Partners in the Draft RIG Report: Audit of USAID/Nigeria’s
        Progress in Implementing the President’s Emergency Plan for AIDS Relief
Implementing      Indicator/Output      FY05      Date of   Date by      Most      Percentage
  Partner                               Target    receipt   which       recent      achieved
                                                  of        FY05       progress    as of most
                                                  FY05      targets                  recent
                                                  funds     should                  progress
                                                            be
                                                            achieved
FHI/GHAIN       Number of               100,000    June       June      79000         79%
                individuals provided               2005       2006     (M&E
                with HIV-related                                       Bulletin
                palliative care                                        May 31,
                                                                        2006)
                Number of service         37       June      June          35         95%
                outlets providing the              2005      2006       (FY06
                minimum package                                         SAPR
                of PMTCT services                                       March
                                                                       31, 2006)
                Number of                490       June      June        1093        223%
                providers/caretakers               2005      2006       (FY06
                trained in caring for                                   SAPR
                OVC                                                     March
                                                                       31, 2006)




                                                                                         12
                                                                                            APPENDIX II


  Update on Non-Achieving Partners in the Draft RIG Report: Audit of USAID/Nigeria’s
       Progress in Implementing the President’s Emergency Plan for AIDS Relief
Implementing    Indicator/Output    FY05 Date of Date by             Most    Percentage
  Partner                           Target receipt which           recent     achieved
                                             of       FY05        progress   as of most
                                             FY05     targets                  recent
                                             funds    should                  progress
                                                      be
                                                      achieved
SFH           Number of              640       July      July        The
              community outreach              2005      2006    Emergency
              HIV/AIDS                                             Plan no
              prevention programs                                   longer
              that promote                                         collects
              abstinence and/or                                  this output
              being faithful                                      indicator
                   Number of                   8,000       July        July          0               0%1
                   individuals who                         2005        2006        (FY06
                   received counseling                                             SAPR
                   and testing                                                    March 31,
                                                                                   2006)

SBFAF              Number of service             2         April       April           3            150%
                   outlets/programs                        2005        2006         (FY06
                   carrying out blood                                               SAPR
                   safety activities                                              March 31,
                                                                                     2006)
                   Number of                     40        April       April          44            110%
                   individuals trained                     2005        2006       (RIG draft
                   in blood safety                                                  report)

John Snow,         Number of                   5620        April       April         6853           122%
Inc.               individuals trained                     2005        2006       (RIG draft
                   in injection safety                                              report)


Draft RIG Audit Finding, p.5:
In another case, the Annual Report Tables showed that Family Health
International/Global HIV/AIDS Initiative in Nigeria (FHI/GHAIN) had provided 9,695
HIV-infected clients with treatment for tuberculosis. However, the data collection
template submitted by the partner (the source document for the tables) showed that only
345 individuals had received treatment.


1
  As noted in the draft audit report, the CTO of the SFH activity met with SFH to discuss this target. SFH
accepted responsibility for the counseling and testing target and is working towards meeting the target. The
recently approved work plan shows that this result will be realized in the fourth quarter of FY 2006.
Progress will be monitored by USAID/Nigeria.



                                                                                                         13
                                                                                APPENDIX II


USAID/Nigeria Response:
Agree. USAID/Nigeria acknowledges the error in the Annual Report Tables. A
transcription error occurred when the figure from the summary line instead of the
Tuberculosis (TB) treatment line from the original data collection tool was entered in the
Annual Report Tables. During future reporting cycles, USAID/Nigeria will ensure that
data entry and transcription are cross-checked for completeness and accuracy by different
individuals from Strategic Object (SO) 14’s Emergency Plan staff and the Program
Office.

Draft RIG Audit Finding, p. 5:
For example, during a portfolio review of John Snow Incorporated (JSI), the Mission
used a cumulative output achievement of 2,245 individuals trained in injection safety to
assess the partner’s progress against the planned output of 5,620 individuals, resulting in
a 40 percent achievement rate as of December 2005. The Mission expected JSI to have
achieved at least 50 percent of the planned output by December 2005 and indicated to
the partner that the assessment concluded that “activities are not clearly achieving
results or do not have all the necessary tools in place for results-oriented management.”
However, this assessment was based on incorrect information that was incorporated into
the summary sheet created by USAID/Nigeria and used during the portfolio review. In
fact, JSI’s December progress report showed that 1,533 individuals had been trained in
the quarter ending December 2005, and when added to the 2,159 trained in the preceding
quarter, the achievement rate was 66 percent, higher than expected.

USAID/Nigeria Response:
Disagree. In an appendix to the Monitoring and Evaluation plan, “Appendix D
Performance Indicators for the Making Medical Injections Safer (MMIS) Project”, JSI
reported on page 21 that the number trained in injection safety in FY 2005 was 2,245 (see
Annex 2). Unfortunately this table was inadvertently omitted during their audit although
it was used during the portfolio review.

The figure reported by the audit team (3,692 trained in injection safety (IS)) is incorrect
as this figure represents total training undertaken in the first quarter of 2006 plus the IS
training in the last quarter of 2005. For example, the table entitled “No. of training,
category, dates and no. of personnel trained” in the October-December 2005 quarterly
report (see Annex 3) includes training for healthcare personnel but also other training
such as training of logistics officers.

Draft RIG Audit Finding, p.5:
During a portfolio review of Safe Blood for Africa Foundation (SBFAF), the Mission
used the output achievement of 3,682 individuals trained in blood safety procedures as of
September 2005, the same figure reported in SBFAF’s progress report. However, this
figure should not have been used to assess SBFAF’s progress in the USAID program as it
reflected the results achieved from activities funded by both USAID and Centers for
Disease Control and Prevention (CDC), another of SBFAF’s Emergency Plan donors.




                                                                                           14
                                                                            APPENDIX II


At another point in time, the partner submitted data indicating the number trained as
3,075 and this figure was entered by USAID/Nigeria into its internal tracking
spreadsheet called the Annual Report Tables. Regardless of which figure is used, the
error still remains since the achievement was compared against a planned output of
training 40 individuals. We believe this error should have been noticed when preparing
for and conducting the portfolio review and when entering the data into the spreadsheet
as using either of those figures resulted in a very questionable achievement rate of
between 7,000 to 9,000 percent. While visiting SBFAF’s office, partner staff provided a
breakout of training data between donors that showed the training of seven individuals
could be attributed to USAID specific outputs, an achievement level of 18 percent.

USAID/Nigeria Response:
Agree. USAID/Nigeria acknowledges the discrepancy/error in the data used to prepare
the SBFAF February 2006 portfolio review pointed out by the RIG audit team. The
format of the SBFAF quarterly reports did/does not breakout outputs/results by agency
funding source, i.e. between results achieved with USAID funds as opposed to results
achieved with Center for Disease Control (CDC) funds. This is because when reporting
programmatic achievements to OGAC, funding streams are not relevant. In fact, OGAC
does not issue prescribed guidance or formulae on how to apportion targets when
multiple partners or funding streams are involved in the same activity. Country teams
with their implementing partners are left to make these decisions on their own. In
Nigeria, we have had discussions within the USG Country Team and within the Strategic
Information Working Group on this issue and the team now has an integrated work plan
and budget which encompasses all activities and funding streams of the SBFAF project.

Draft RIG Audit Recommendation, p.6:
Recommendation No. 1: We recommend that USAID/Nigeria develop specific
procedures to cross-check and verify data used to monitor, report and/or assess the
progress of Emergency Plan partners, including but not limited to Portfolio Reviews
and the Mission’s internal Annual Report Tables, and that this verification should be
documented in the activity files.

USAID/Nigeria Response:
Agree. USAID/Nigeria developed a Mission Order (see Annex 4) to ensure data quality
for the portfolio review. Mission Order 200-10, Preparation of an Annual Report will
continue to serve as the protocol for ensuring data quality for annual report submissions
(see Annex 5). The relevant CTO and SI Advisor will review the narrative and
quantitative information contained in the relevant sections of the annual report and
ascertain whether it matches source documents. All data that have been aggregated and
entered into tables or spreadsheets will be verified for accuracy (formulas checked,
transcription errors eliminated, etc.) by at least one other member of the SI team. The SO
14 Project Development Officer will cross-check this data verification process for the
annual report.




                                                                                        15
                                                                             APPENDIX II


Draft RIG Audit Other Issues Section, p. 7:
USAID/Nigeria feels strongly that this section should remain in the final RIG audit
report. In September 2006, USAID/Nigeria will be required to submit a waiver request to
OGAC to allow specific partners, such as FHI/GHAIN, to possess more than 10% of the
FY 2007 Country Operational Plan (COP) budget. It is USAID/Nigeria’s contention that
the “Ten Percent Rule” may negatively impact implementation and performance of the
USG/Nigeria Emergency Plan.

Draft RIG Audit Finding, p.13:
FHI/GHAIN was working in three of the five prevention program areas and all four of
the care program areas, and as of January 2006, was achieving or exceeding six of the
seven outputs reviewed, representing approximately 7 months of activities. However,
FHI/GHAIN experienced delays in its care activities, specifically to the output of
providing individuals with general HIV-related palliative care. As of September 2005,
(representing 3 months of activities), only 209 individuals were provided care against a
planned output of 100,000. Four months later, FHI/GHAIN had provided care to over
34,000 individuals, but that still represented only 34 percent of the planned output.
Partner staff at FHI/GHAIN attributed the lack of progress to a delay in implementation
until a misunderstanding, due to a change in guidance, was resolved between them and
USAID/Nigeria. FHI/GHAIN indicated that they anticipate meeting the planned output
by June 2006.

USAID/Nigeria Response:
Disagree in part. According to the FY05 Emergency Plan Annual Progress Report data
collection tool, Family Health International/Global HIV/AIDS Initiative Nigeria
(FHI/GHAIN) provided HIV-related palliative care (including TB prophylaxis and/or
treatment) to 6,957 individuals by the end of September 2005, a considerable number
more than the 209 listed in the table on p.12 of the Draft RIG Audit Report. It is possible
that the auditors used achievement data for the indicator, Total number of individuals
trained in palliative care according to national or international standards (reported to be
206 individuals in the GHAIN December 2005 quarterly report) rather than the indicator
Total number of individuals provided with HIV related palliative care (including
TB/HIV).

At the time of the RIG audit, GHAIN’s provision of care services lagged considerably
behind target. In March 2006, GHAIN successfully responded to a yellow letter with a
road map for achieving its palliative care targets. As of May 2006, GHAIN had provided
palliative care services to 79,000 persons and expects to achieve its target of reaching
100,000 by the end of June 2006—one year from the date of receipt of funds.

Draft RIG Audit Finding, p.15:
SBFAF’s Emergency Plan activities did not progress as expected towards one of its two
key planned outputs. While it exceeded its goal of training 40 people by March 2006,
SBFAF had not yet established the second service outlet in Lagos within the required
one-year implementation time period. USAID/Nigeria is working closely with SBFAF to




                                                                                        16
                                                                             APPENDIX II


find alternative solutions for achieving expected outputs through the development of its
FY 2006 workplan.

USAID/Nigeria Response:
Disagree in part. The RIG audit team likely gathered the data on the SBFAF service
outlets from the SBFAF portfolio review worksheet. The data in that worksheet reflected
SBFAF outcomes up to December 2005. From December 2005 to March 2006, SBFAF
opened two service outlets (including a service outlet in Lagos). This data is reflected in
the FY06 Emergency Plan Semi-Annual Data Collection Tool (see Annex 6). Presently,
SBFAF has four sites in operation.

USAID/Nigeria appreciates the efforts of the RIG auditors and the valuable
recommendation made in the draft audit report. It is our contention that the
implementation of a data quality checklist addresses the first and only recommendation
contained in the audit report and trust that this audit recommendation will be closed.




                                                                                           17
                                                                            APPENDIX III



PROGRESS REPORTED
TOWARDS OUTPUTS
Family Health International/Global HIV/AIDS Initiative in Nigeria (FHI/GHAIN) –
FHI/GHAIN, a consortium of seven partners with FHI as the prime, is USAID/Nigeria’s
largest partner within the Emergency Plan and is working in almost every program area
within prevention and care. FHI/GHAIN is in its second year of a 5-year $200 million
cooperative agreement with $20.2 million provided to implement fiscal year (FY) 2005
prevention and care activities. FHI/GHAIN received FY 2005 funding in June 2005.

                                          September 2005              January 2006
                                       (3 months of activities)   (7 months of activities)
                             FY 2005   FY 2005                    FY 2005
                             Planned   Achieved    Percentage     Achieved    Percentage
Output Description            Output    Output      Achieved       Output      Achieved
1. Number of service
outlets providing the
                               37         27          73%            35           95%
minimum package of
PMTCT services
2. Number of
individuals reached
through community
outreach HIV/AIDS            105,000   776,143        739%        1,547,300     1,474%
prevention programs
that promote abstinence
and/or being faithful
3. Number of
community outreach
HIV/AIDS prevention
                               5          12          240%           12          240%
programs that are not
focused on abstinence
and/or being faithful
4. Number of
individuals provided with
                             100,000    6,612          7%          34,298         34%
general HIV-related
palliative care
5. Number of service
outlets providing clinical
prophylaxis and/or             12         18          150%           19          158%
treatment for TB for
HIV-infected individuals
6. Number of
providers/caretakers
                              490         89          18%           747          152%
trained in caring for
OVC


                                                                                        18
                                                                            APPENDIX III


7. Number of service
outlets providing               74          83         112%           71           96%
counseling and testing

FHI/GHAIN was working in three of the five prevention program areas and all four of the
care program areas, and as of January 2006, was achieving or exceeding six of the
seven outputs reviewed, representing approximately 7 months of activities. However,
FHI/GHAIN experienced delays in its care activities, specifically to the output of
providing individuals with general HIV-related palliative care. As of September 2005,
(representing 3 months of activities), only 6,612 individuals were provided care against a
planned output of 100,000. Four months later, FHI/GHAIN reported providing care to
over 34,000 individuals, but that still represented only 34 percent of the planned output.
Partner staff at FHI/GHAIN attributed the lack of progress to a delay in implementation
until a misunderstanding, due to a change in guidance, was resolved between them and
USAID/Nigeria. FHI/GHAIN indicated that they anticipate meeting the planned output by
June 2006.

During the audit, we conducted a site visit to the Ministry of Health General Hospital
Calabar in Cross River State, to observe FHI/GHAIN activities. FHI/GHAIN integrated
three different program areas—“Counseling and Testing,” “Prevention of Mother-to-Child
Transmission (PMTCT),” and “Basic Care and Support”— creating a “one-stop shop”
type of service at the hospital where individuals could receive counseling and testing to
determine their HIV status and, if positive, could receive care and support through a
monthly support group session and home-based care visits. There was also a PMTCT
area offering services for pregnant HIV-positive women. In addition to observing
activities, we also performed a limited test of selected data related to outputs number 1,
4 and 7 as shown in the preceding table to determine the reliability of data reported by
the hospital to FHI/GHAIN and ultimately to USAID. We reviewed registers maintained
by the laboratory showing the number of individuals tested during the months of July
2005 and February 2006. The numbers in the register matched the numbers reported
back to FHI/GHAIN without exception. We also reviewed the patient register for the
month of March 2006. The register showed that 175 pregnant women were tested, 22
were HIV-positive and 12 were treated with anti-retroviral drugs, part of the minimum
package of PMTCT services. Finally, at an HIV-support center managed by a sub-
partner of FHI/GHAIN, we reviewed the patient registers for the 600 patients that
received services since July 2005. We also reviewed their home-based care registers
where home-visits to patients were recorded. We observed that all the registers and
logs were detailed and showed name, date, what services were provided during the visit,
observations of the patients, recommendations, and whether a referral was given. This
verification was focused more on assuring that individuals seeking services at his facility
received palliative care, and on the quality and thoroughness of the data. We did not
trace the 600 patients up the reporting chain to the 34,298 reported by FHI/GHAIN.


Society for Family Health (SFH) – In July 2005 SFH was awarded a 4-1/2 year
cooperative agreement with USAID/Nigeria for $9.8 million, with $2.7 million for FY 2005
activities. SFH received its FY 2005 funding in July 2005. SFH was working within three
program areas, “Abstinence and Be Faithful” and “Other Prevention” under prevention,
and “Counseling and Testing” under care.




                                                                                         19
                                                                                     APPENDIX III



                                                September 2005                December 2005
                                             (3 months of activities)      (6 months of activities)
                                FY 2005      FY 2005                       FY 2005
                                Planned      Achieved      Percentage      Achieved      Percentage
    Output Description           Output       Output        Achieved        Output        Achieved
    1. Number of
    community outreach
    HIV/AIDS prevention
                                  640           301            47%            640           100%
    programs that promote
    abstinence and/or being
    faithfula
    2. Number of
    individuals reached with
    community outreach
    HIV/AIDS prevention          6,000         9,478          158%          17,669          294%
    programs that are not
    focused on abstinence
    and/or being faithful
    3. Number of
    individuals who
                                 8,000            0             0%              0             0%
    received counseling
    and testing
a
 In the response from USAID/Nigeria, the Mission indicated that OGAC has dropped this indicator due to
inconsistent methods used to count programs.

As of December 2005, representing only 6 months of activities, SFH reported having met
two of the three outputs reviewed but had not achieved any of its planned output of
providing counseling and testing to 8,000 individuals. During discussions regarding
progress in achieving outputs, SFH staff stated that they were no longer responsible for
directly providing counseling and testing but were now focused on creating the demand
and referring individuals to testing centers. However, the CTO responsible for this
partner indicated that SFH was, in fact, still responsible for the counseling and testing as
evidenced by a Modification of Contract. This situation was due to a misunderstanding
between the partner and the CTO and was addressed at the time of this audit.

Due to lack of time during fieldwork, the team was unable to visit a regional center where
the data was maintained that would allow the team to verify a sub-set of the 17,000
reached through this program to support output number 2 shown in the preceding table.
However, we directly observed the program’s activities at brothels and met commercial
sex workers and other individuals who were the recipients of the program. We met with
four SFH Behavior Change Officers in Lagos who visit brothels weekly, teaching
commercial sex workers about HIV/AIDS and sexually transmitted diseases as well as
basic money management skills to help them plan for a different type of future. At each
brothel, the Behavior Change Officers would also train one sex worker to be a Peer
Educator to mentor and teach the other commercial sex workers about prevention of
HIV/AIDS and STDs. In speaking with the sex workers, they seemed to be very
appreciative of the SFH staff. One in particular mentioned that she did not even know
what a condom was before being involved in the program.


                                                                                                   20
                                                                                             APPENDIX III




Safe Blood for Africa Foundation (SBFAF) – SBFAF’s activities are funded through a
Global Development Alliance, a public-private partnership, which commenced in 2003,
prior to the implementation of the Emergency Plan in Nigeria. SBFAF was provided
$731,000 to implement FY 2005 care activities under the program area of “Medical
Transmission/Blood Safety”. SBFAF received its funding in April 2005.

                                                    September 2005                    March 2006
                                                 (6 months of activities)        (12 months of activities)
                                   FY 2005       FY 2005                          FY 2005
                                   Planned       Achieved       Percentage        Achieved       Percentage
    Output Description              Output        Output         Achieved          Output         Achieved
    1. Number of service
    outlets/programs
                                       2              1             50%                1             50%
    carrying out blood
    safety activities
    2. Number of
    individuals trained in            40              7a            18%               44            110%
    blood safety
a
 As discussed earlier, the partner’s original reporting of this output was much higher due to the combining of
results for USAID- and CDC-funded activities.

While SBFAF reported that it had exceeded its goal of training 40 people by March 2006,
SBFAF had not yet established the second service outlet in Lagos within the required
one-year implementation time period. USAID/Nigeria is working closely with SBFAF to
find alternative solutions for achieving expected outputs through the development of its
FY 2006 workplan.


Hope Worldwide – Hope Worldwide received centrally awarded funding in the amount
of $235,000 to implement FY 2005 care activities under the program area “Orphans and
Vulnerable Children (OVC).” Hope Worldwide received its FY 2005 funding in August
2005.

As noted in the table below, Hope Worldwide reported achieving both of its key outputs
as of September 2005, after only 2 months of activities.

                                                    September 2005                     March 2006
                                                 (2 months of activities)         (8 months of activities)
                                  FY 2005        FY 2005                          FY 2005
                                  Planned        Achieved       Percentage        Achieved       Percentage
    Output Description             Output         Output         Achieved          Output         Achieved
    1. Number of OVC
                                       1              1            100%                1            100%
    programs
    2. Number of OVC
    served by OVC                    150             348           232%              601            401%
    program




                                                                                                           21
                                                                                         APPENDIX III


At the time of audit, we observed a Life Skills Camp that Hope Worldwide was hosting
for the children enrolled in its OVC program. It was a 5-day overnight camp where the
children were taught life skills covering such subjects as self-esteem, peer pressure, and
topics related to HIV/AIDS. In addition to classroom learning, recreational activities were
incorporated into the daily schedule.

During our visit to Hope Worldwide’s office in Lagos, we performed a limited test to verify
the accuracy of Hope Worldwide’s data. We reviewed the database to determine if it
contained names for reported 601 children in the OVC program as of March 2006. The
database only contained 558 names but had not been updated since February. The
staff told us they update the system every two months and as such, the database did not
contain all of the figures for March yet which explained the difference. We could not
verify the number from March as some of the participant forms were still in the field.
However, we considered the explanation reasonable. We judgmentally selected the
names of four children from the main office’s database who were shown as currently
attending camp, then verified that their individual files were maintained at the office.
During our site visit to the camp we verified that those selected children were in
attendance. Two of the children are shown in the photo below.




Photos of children taking part in Hope Worldwide’s 2006 Life Skills Camp in Ogun State. Photos taken on
April 20, 2006.



John Snow Incorporated (JSI) - JSI received $2.8 million in centrally awarded FY 2005
funding under the prevention program area “Medical Transmission/Injection Safety” to
train medical waste handlers in the safe disposal of used needles. JSI received FY 2005
funding in April 2005.

As of September 30, 2005, with half the year remaining, JSI reported training 2,159
individuals, representing 38 percent of its annual planned output. As of December 31,
2005, with one quarter of the year remaining, JSI’s progress report showed 2,245 people
had been trained, representing 40 percent of their goal.




                                                                                                      22
                                                                               APPENDIX III


                                             September 2005             December 2005
                                          (6 months of activities)   (9 months of activities)
                             FY 2005      FY 2005                    FY 2005
                             Planned      Achieved    Percentage     Achieved     Percentage
Output Description            Output       Output      Achieved       Output       Achieved
1. Number of
individuals trained in         5,620       2,159          38%          2,245          40%
injection safety

While we did not verify the accuracy of all the individuals trained, during our visit to JSI’s
headquarters in Abuja, we performed a limited test of JSI’s training data to determine if
the data they submitted to USAID was reliable. At the JSI office, we verified that the
number of names on attendance sheets for three training sessions reconciled with the
number reported by JSI. For example JSI reported 38 participants in a 4-day training
session held in September 2005; the attendance lists for each day varied between 38
and 43 participants which we did not consider material or significant. A similar variation
occurred for a 2-day training program in November 2005. The attendance lists showed
44 signatures the first day and 36 for the second day. The partner reported 45, which is
an immaterial and insignificant difference. There were no discrepancies related to a 2-
day training session in February 2006 – the attendance list for both days showed 43
participants which was the number reported.




                                                                                            23
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
